           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   Disability Determination Services
    Net Accuracy Rate--Allowances
        and Denials Combined

   November 2004       A-15-04-14074




AUDIT REPORT
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                  SOCIAL SECURITY

MEMORANDUM

Date:   November 10, 2004                                                       Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Performance Indicator Audit: Disability Determination Services Net
        Accuracy Rate--Allowances and Denials Combined (A-15-04-14074)


        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the
        Social Security Administration’s performance indicators established to comply
        with the Government Performance and Results Act. The attached final report
        presents the results of the performance indicator PwC reviewed. For the
        performance indicator included in this audit, PwC’s objectives were to:
           •   Test critical controls over the data generation and calculation processes
               for the specific performance indicator,
           •   Assess the overall adequacy, accuracy, reasonableness, completeness,
               and consistency of the performance indicator and supporting data, and
           •   Determine if each performance indicator provides meaningful
               measurement of the program and the achievement of its stated objectives.

        This report contains the results of the audit for the following indicator:

           •   Disability Determination Services Net Accuracy Rate (allowances and
               denials combined).

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have
        your staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                          S
                                                          Patrick P. O’Carroll, Jr.

        Attachment
MEMORANDUM

Date:   October 8, 2004

To:     Acting Inspector General

From:   PricewaterhouseCoopers LLP

Subject: Performance Indicator Audit: Disability Determination Services Net
        Accuracy Rate--Allowances and Denials Combined (A-15-04-14074)

The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

To enhance the practical use of performance information, the Office of Management
and Budget (OMB), in collaboration with other Federal agencies, developed the
Program Assessment Rating Tool (PART), which is comprised of assessment criteria on
program performance and management. PART establishes a high, "good government"
standard of performance and is used to rate programs in an open, public fashion.4 The
indicator included in this audit report, "DDS Net Accuracy Rate (allowances and denials
combined)," is a PART measure.

OBJECTIVE
For the performance indicator included in this audit, our objectives were to:

        1. Test critical controls over the data generation and calculation processes for
           the specific performance indicator.
        2. Assess the overall adequacy, accuracy, reasonableness, completeness, and
           consistency of the performance indicator and supporting data.
        3. Determine if each performance indicator provides meaningful measurement
           of the program and the achievement of its stated objectives.




1
  Public Law No. 103-62, 107 Stat. 285.
2
  31 United States Code (U.S.C.) 1115(a)(4).
3
  31 U.S.C. 1115(a)(6).
4
  http://www.whitehouse.gov/omb/budintegration/part_assessing2004.html.


Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   1
We audited the following performance indicator as stated in SSA’s Fiscal Year
(FY) 2003 Performance and Accountability Report (PAR):

    Performance Indicator                  FY 2003 Goal                    FY 2003 Reported
                                                                                Results
    DDS Net Accuracy Rate
    (allowances and denials                      97%                           Not Available
    combined)

BACKGROUND
Section 221 (a)(2)5 of the Social Security Act directs the Commissioner to promulgate
regulations specifying performance standards for the disability determination function to
assure effective and uniform administration of the Disability Insurance Program. Initial
disability determinations are completed by the Disability Determination Services (DDS),
which are State agencies or other responsible jurisdictions. Title 20 of the Code of
Federal Regulations (CFR), section 404.1643 (b), specifies DDS performance criteria,
including the required rate of decisional accuracy for initial disability claims of 99
percent for combined Title II and Title XVI cases.

Section 221(c) of the Social Security Act also directs the Commissioner to review
favorable and unfavorable determinations made by the DDSs. SSA’s Quality
Assurance (QA) Initial Disability Determination Reviews, which are conducted by the
regional disability quality branches (DQB) within the Office of Quality Assurance and
Performance Assessment (OQA), are used to determine the accuracy of the initial
allowance and denial determinations made by the DDSs. The results of the reviews are
compiled and used to calculate the DDS Net Accuracy Rate reported in SSA’s FY 2003
PAR. Appendix C provides an overview of the OQA process for determining the
accuracy rate.

SSA’s OQA regional Disability Quality Branches (DQB) review the DDS determinations
selected by the National Disability Determination Services System Automated Sample
Selection Process module. To ensure the appropriateness of the disability
determination, the review replicates the DDS eligibility determination process as closely
as possible. Medical consultation is obtained by one of the disability reviewers (a non-
physician OQA disability examiner) in essentially all cases. The results of the reviews
are tracked entirely within the Disability Case Adjudication and Review System
(DICARS). Reviewers input findings into DICARS. The DICARS results are uploaded
to the OQA National Datafile on SSA’s mainframe for subsequent calculation of the
indicator.

There are three types of deficiencies identified by DQB. Group I deficiencies are
substantive deficiencies that affect or have the potential to affect the determination of
eligibility. Group II deficiencies are substantive deficiencies that affect only the onset
date, ending date, or cessation date but do not affect the determination. Group III
5
    42 U.S.C. 421(a)(2).


Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   2
technical deficiencies are instances of noncompliance with procedural requirements that
do not affect the determination. Group I decisional deficiencies are those in which all
documentation is present and a different medical decision should have been made.
Group I deficiencies identified by the reviewers are returned to the appropriate DDS with
detailed directions for the required corrective action. If the DDS agrees with DQB’s
assessment, it will correct the deficiency and return the case to DQB for completion of
the review and final case input. The DDSs may dispute Group I deficiencies; if OQA
agrees with the dispute, the deficiency is rescinded.

The DDS Net Accuracy Rate reflects Group I deficiencies in initial determinations only.
The Net Accuracy Rate is based on the number of deficient cases with changed
disability decisions. In addition, deficient cases not corrected within 90 days from the
end of the period covered by the report, are counted as changed decisions.

RESULTS OF REVIEW

DDS Net Accuracy Rate (allowances and denials combined)

          FY 2003 Goal: 97%
          Actual FY 2003 Performance: Not available.6

Due to the length of time required to gather, validate, analyze, and report on this
performance indicator, SSA did not include the actual FY 2003 performance results in
the FY 2003 PAR. The data and final calculation results were provided for our review in
January 2004. Refer to Appendix D for the final report provided to
PricewaterhouseCoopers, LLP. OQA reported a 96.1 percent Net Accuracy Rate in its
final report. At the time of this audit, SSA had not reported the result externally.

The DDS Net Accuracy Rate indicator is an outcome measure representing a direct
evaluation of whether SSA made the right decision in the disability determination
process. The indicator directly supports the strategic objective of “Make the right
decision in the disability process as early as possible.”7

Generally, we found this performance indicator to be meaningful. However, some
improvements could be made to clarify and improve the usefulness of this performance
indicator. In addition, we believe SSA should strengthen the logical access privileges
given to employees to ensure that the data supporting this performance indicator is not
inadvertently deleted or changed without appropriate approval.

Title 20 of the CFR, section 404.1643 (b), establishes the target level for decision
accuracy at 99 percent. However, SSA’s goal for the performance indicator was set
lower than the established regulatory target at 97 percent. The PAR did not explain why
SSA set the goal below the target established by regulation. SSA did not meet the
internal goal or the regulatory target during the year under review.
6
    Social Security Administration Performance and Accountability Report Fiscal Year 2003, page 73.
7
    Ibid, page 72.


Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   3
We found the narrative included in the PAR related to the performance indicator should
have been more informative. The narrative explained that SSA did not meet its
FY 2002 goal and it provided the actual results for FY 2002, but did not state the
FY 2002 goal. Trend performance was shown for FY 1999 through FY 2001, but the
text explained that FY 2002 data was not comparable to the FY 1999 through FY 2001
data due to a change in the performance measure definition. No explanation was
provided to aid the user of this information to understand the practicality or relevance of
the FY 1999 through FY 2001 data.

The PAR narrative states that the Net Accuracy Rate, which is the accuracy rate for
allowances and denials combined, is more meaningful as an indicator of “…correctness
of DDS decision-making.…”8 Allowances in the disability adjudication process are more
frequently decided earlier in the process, thus there is more opportunity for error in the
denial determination. The combined accuracy rate for a DDS could potentially increase
while its denial accuracy rate continues to decrease. OQA measures and tracks
accuracy rates separately for allowances and denials. By including the individual error
rates for the two types of decisions, SSA could improve the meaningfulness of the
indicator. Also, the narrative did not include the margin of error (i.e., quantification of
sampling error) that results from extrapolating the sample error rate to the entire
population of cases reviewed.

We also found that the accuracy rate only covered the initial disability determinations
made by the DDSs, even though the DDSs were also responsible for making the
disability determinations for: a) Continuing Disability Reviews (CDR) and
b) Reconsideration requests. The sampling process included DDS decisions related to
the CDRs and Reconsideration determinations; however, this information was excluded
from the Net Accuracy Rate. The lack of clarity in the title of the performance indicator
and in the “data definition” section of the PAR may lead to confusion regarding whether
this performance indicator reflects the accuracy of all DDS workloads as opposed to a
single DDS workload.

The documentation of the sampling methodology used by OQA could be improved. The
documentation lacks a complete and comprehensive description of the statistical
methodology and statistical formulas to sample and project the results of the DQB
reviews. In addition, SSA’s computer programs did not contain descriptive narratives.
Specifically, the programs did not include enough imbedded comments to describe its
function. There was an absence of documented policies and procedures used to
prepare the performance measure information and management indicated that resource
constraints prevented adequate documentation of the programs and methodology.
Finally, documentation describing the automated and manual controls involved in the
calculation and reporting of the performance indicator did not exist.

We tested a selection of DICARS mainframe datasets used to calculate the indicator
and found that seven SSA employees had the “All” access designation within the Top
8
    Ibid, page 73.


Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   4
Secret security software to these datasets. This level of access would allow users to
create, delete and update any of the data (or datasets) contained within the datasets we
reviewed without appropriate review or approval of the changes.

RECOMMENDATIONS
We recommend SSA:

    1. Consider reporting interim results in the PAR, or change the measurement period
       for this indicator to enable SSA to report current year results in the PAR.
    2. Disclose in the PAR how the performance indicator contrasts with the target set
       forth in the CFR, and the reason why it differs from the CFR target.
    3. Ensure that the performance indicator titles, definitions, and goals are explicit,
       complete, and consistent.
    4. Provide comprehensive explanations on the relevance of non-comparable data
       included in the PAR narrative.
    5. Consider including the accuracy rates for allowances and denials.
    6. Include in the PAR the margin of error (i.e., quantification of sampling error) that
       results from projecting the sample error rate to the entire population of cases
       reviewed.
    7. Maintain documentation that describes how the performance indicator goals were
       established, document the policies and procedures used to prepare and report
       the results of the performance indicators, and keep a complete audit trail.
    8. Ensure that SSA personnel do not have the ability, through inappropriate access,
       to directly modify, create or delete the datasets used to calculate the results of
       this indicator.

AGENCY COMMENTS
SSA agreed with five of the recommendations in this report; however, it disagreed with
two recommendations and had clarifying comments to a third recommendation. The full
text of SSA’s comments can be found in Appendix E.

Recommendation 2

Specific to Recommendation 2, SSA disagreed. SSA stated the targeted level for Net
Accuracy is not in conflict with the regulations. In fact, Net Accuracy is not mentioned in
the regulations.

PwC RESPONSE
We disagree with the SSA’s comment. Title 20 of the CFR, section 404.1643 (b),
establishes the target level for decision accuracy at 99 percent. The definition of
decision accuracy rate contained in the CFR is consistent with the data definition of this
performance indicator contained in the PAR. Therefore, we continue to recommend
that SSA disclose in the PAR (a) how the performance indicator goal of 97 percent


Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   5
contrasts with the decision accuracy rate target of 99 percent set forth in the CFR, and
(b) the reason why the two targets differ.

Recommendation 5

Specific to Recommendation 5, SSA disagreed with the need to have multiple external
GPRA measures for DDS accuracy. SSA stated that reporting allowances and denials
separately would not provide a more meaningful indicator and would simply be
redundant. If anything, it would cause more confusion for the public regarding the
Quality Assurance (QA) process.

PwC RESPONSE
We continue to recommend that SSA consider including the accuracy rates for both
allowances and denials. By including the individual error rates for the two types of
decisions, SSA could improve the meaningfulness of the indicator.

Recommendation 7

Specific to Recommendation 7, SSA responded that SSA already documents and
establishes internal controls over the collection, processing and reporting of data to
ensure that our indicators are complete and adequate. SSA will continue to implement
this process for any new indicators that are established in the future. The full text of
SSA’s comments can be found in Appendix E.

PwC RESPONSE
While the agency has documented certain aspects of the DDS Net Accuracy Rate
performance reporting process, these documents do not contain detailed information
that explains the statistical methodology and statistical formulas used to sample and
project the results of the DQB reviews. In addition, SSA’s computer programs did not
contain enough imbedded information to allow an unfamiliar reader to understand the
function of the program. Finally, policies and procedures were not documented that
described (a) how the performance measure information was prepared, or (b) the
automated and manual controls involved in the calculation and reporting of the
performance indicator. By comprehensively documenting the process for calculating
and reporting the performance indicators, SSA will further ensure that the indicator
reporting life cycle is completed in a consistent and controlled manner.

Technical Comments

The full text of SSA’s comments can be found in Appendix E.




Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   6
PwC RESPONSE
PwC has updated the report. Regarding Appendix C, page 2, some of the modified text
in SSA’s comments was too voluminous to be included in the flow chart. However, all of
the text was included in the narrative description of the process flow.




Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   7
                                            Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Table 2 of the FY 2003 Net Accuracy Report

APPENDIX E – Agency Comments




Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)
                                                                                         Appendix A

Acronyms
CDR              Continuing Disability Review
CFR              Code of Federal Regulations
DDS              Disability Determination Services
DICARS           Disability Case Adjudication and Review System
DQB              Disability Quality Branches
FY               Fiscal Year
GAO              Government Accountability Office
GPRA             Government Performance and Results Act
NDDSS            National Disability Determination Services System
OMB              Office of Management and Budget
OQA              Office of Quality Assurance and Performance Assessment
PAR              Performance and Accountability Report
PART             Program Assessment Rating Tool
Pub. L.          Public Law
QA               Quality Assurance
SSA              Social Security Administration
U.S.C.           United States Code




Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)
                                                                                         Appendix B

Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured, as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation and other substantive testing, we performed the following
as applicable:

      •   Reviewed prior SSA, Government Accountability Office,1 and other reports
          related to SSA GPRA performance and related information systems.
      •   Met with the appropriate SSA personnel to confirm our understanding of each
          individual performance indicator.
      •   Flowcharted the associated processes (see Appendix C).
      •   Conducted and evaluated tests of the automated and manual controls within and
          surrounding the critical application to determine whether the tested controls were
          adequate to provide and maintain reliable data to be used when measuring the
          specific indicator.
      •   Identified and extracted data elements from relevant systems and obtained
          source documents for detailed testing selections and analysis.
      •   Identified attributes, rules, and assumptions for each defined data element or
          source document.
      •   For those indicators with results that SSA determined using computerized data,
          we assessed the completeness and accuracy of that data to determine the data’s
          reliability as it pertains to the objectives of the audit.
      •   Tested the adequacy, accuracy, reasonableness, consistency, and completeness
          of the selection.
      •   Recalculated the metric or algorithm of key performance indicators to ensure
          mathematical accuracy.

As part of this audit, we documented our understanding, as conveyed to us by SSA
personnel, of the alignment of SSA’s mission, goals, objectives, processes, and related
performance indicators. We analyzed how these processes interacted with related
processes within SSA and the existing measurement systems. Our understanding of
SSA’s mission, goals, objectives, and processes were used to determine if the
performance indicators being used appear to be valid and appropriate. We followed the
applicable performance audit standards.


1
    Formerly called the General Accounting Office.


Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   B-1
In addition to the steps mentioned, we specifically performed the following to test the
indicator included in this report:

    •   Obtained an understanding and reviewed the Office of Quality Assurance and
        Performance Assessment (OQA) statistical methodology (including sample
        weighting and error estimation) for performing Quality Assurance Initial Disability
        Determination Reviews through interviews and meetings with appropriate OQA
        personnel.
    •   Selected 45 cases from the OQA National Datafile on SSA’s mainframe and
        reviewed each claim folder to ensure proper recording of review results in
        Disability Case Adjudication and Review System and whether the review properly
        established the beneficiary's disability status based on the evidence available in
        the claims folder.




Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   B-2
                                                                                                                                 Appendix C

Flowchart of DDS Net Accuracy Rate
                                                       DDS makes
 QA review data                                    decisional input into                                                                   Decision
                                                     State System                                                                         considered
 and final results                                                                                                      A
   entered into                                                                         Documentation                                    accurate and
    DICARS                                                                            sufficient to make or                           issued to claimant
                                                                                       support disability                       Yes
                                                                                             decision
                                                   Data uploaded to
                                                       NDDSS
                                                                                                    No
DICARS uploaded
 to OQA National
    Datafile on                                                                                Case returned to
    mainframe                                                                                  DDS for additional
                                                                                                documentation
                                                         NDDSS


  OQA National
    Datafile                                                                                    DDS provided
                                                                                                documentation
                                                                                                within 90 days
                                                     Automated
                                                   Sample Selection
                                                      Process
                                                                               No
    Results
 summarized on
  Net Accuracy
    Reports
                                                      Selected for
                                                                                    Delinquent return
                                                       QA review


                                                                                                                     Yes

                                                       Case data                           B
                                                     downloaded to
                                                        DICARS
                                                                                                                    Decision does
                                                                                               Decision
                                                                                                                     not change
                                                                                               changes


                                                   Case forwarded to
                                                     DQB for QA
                                                        review                                                              A




                                                                           B    Net Accuracy Error
                                                        Decision
                                                       considered
                                                      accurate and
                                                   issued to claimant




                                          no
                      DQB considers
                      case deficient



                      yes


                         If decision
                       changes, error
                      counted against
                                               B
                        net accuracy




                     Decision corrected




Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)                                                         C-1
DDS Net Accuracy Rate

    •   Disability Determination Services (DDS) makes decisional input into State
        system.
    •   Data is then uploaded to National Disability Determination Services System
        (NDDSS).
    •   The automated sample selection process within NDDSS selects the files for
        review.
    •   Case data is subsequently downloaded to Disability Case Adjudication and
        Review System (DICARS).
    •   Case files are forwarded to the Disability Quality Branches (DQB) for review.
    •   If documentation in the file is sufficient to support the disability determination,
        DQB approves the determination.
    •   If documentation in file is insufficient to support the proposed disability
        determination, the case is returned for additional documentation. If the
        documentation supports a different determination, the case is returned for
        correction of the determination.
    •   If a case is returned to the DDS, the DDS must return the corrected case to the
        DQB for completion of the review within 90 days.
    •   Once the additional documentation or the corrected determination is provided to
        DQB, the DQB completes the review.
    •   Review data and final results are entered into DICARS.
    •   Results are uploaded to the Office of Quality Assurance and Performance
        Assessment National Datafile.
    •   Results are summarized in the Net Accuracy Report. Determinations in which
        the determination did not change; i.e., the decision to allow or deny remained the
        same, are not counted as deficiencies for the purpose of the calculation of net
        accuracy. All other deficiencies; i.e., all deficiencies in which the determination
        changed, as well as the delinquent returns, are counted as changed decisions for
        the calculation of net accuracy.




Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   C-2
                                                                                 Appendix D
Table 2 of the FY 2003 Net Accuracy Report
PricewaterhouseCoopers received the final Fiscal Year (FY) 2003 Disability
Determination Services (DDS) Net Accuracy Report from the Office of Quality
Assurance and Performance Assessment (OQA) on January 18, 2004. The
report has undergone OQA’s clearance process. It has been approved by all
appropriate levels within OQA, and has been provided to all users. OQA’s
Associate Commissioner is aware of the results; however, he is not part of the
report clearance process.

Table 2 includes the DDS Net Accuracy at the national level for FY 2003.




Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   D-1
Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   D-2
                                                                                          Appendix E
Agency Comments




Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)
                                               SOCIAL SECURITY

MEMORANDUM                                                                                    33296-24-1162


Date:      September 24, 2004                                                                 Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye         /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Performance Indicator Audit: Disability
           Determination Services Net Accuracy Rate - Allowances and Denials Combined" (A-15-04-
           14074)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to Candace
           Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
PERFORMANCE INDICATOR AUDIT: “DISABILITY DETERMINATION SERVICES
NET ACCURACY RATE - ALLOWANCES AND DENIALS COMBINED" (A-15-04-
14074)


Thank you for the opportunity to review and comment on the draft report. We are pleased that
the review found that the indicator is both meaningful and directly supports the strategic
objective of “Make the right decision in the disability process as early as possible.” We
welcome external input, suggestions, and the contributions the Inspector General has made, and
continues to make, in assisting us in developing a comprehensive performance measurement
process. We too are committed in our efforts toward documenting relevant performance
measures, ensuring our performance data are complete, and implementing adequate internal
controls over our data systems and processes.

We strongly suggest rewording the second sentence of the third full paragraph on page 4 which
reads, “The disability adjudication process involves a larger number of steps for denials than
allowances, making denials inherently more error prone.” The adjudication process, or
sequential evaluation, is not different for allowances and denials. It is true that allowances are
more frequently decided earlier in the process—thus there is more opportunity for error in the
denial determination. However, we find the current language in the report to be potentially
misleading to the outside reader.

Our responses to the specific recommendations are provided below.

Recommendation 1

Consider reporting interim results in the Performance and Accountability Report (PAR) or
change the measurement period for this indicator to enable SSA to report current year results in
the PAR.

Response

We agree. We understand OIG’s comments supporting the usefulness of reporting the net
accuracy measurement. However, net accuracy reports cannot be issued until three months after
OQA has cited the original error. As a result, the net accuracy report for the previous fiscal year
will not be available until mid-January. We will provide interim performance results in the FY
2004 PAR.




Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   E-2
Recommendation 2

Disclose in the PAR how the performance indicator contrasts with the target set forth in the Code
of Federal Regulations (CFR) and the reason why it differs from the CFR target.

Response

We disagree. The targeted level for Net Accuracy is not in conflict with the regulations. In fact,
Net Accuracy is not mentioned in the regulations.

The references made in the report to regulation 20 CFR 404.1643 are incorrect. This regulation
governs Performance Accuracy and its corresponding decisional accuracy--not “Net Accuracy.”
The concept and development of Net Accuracy came into existence in the 1990s, years after the
regulations were published. Specifically, the regulation reads:

      "(b) Target level. The State agency initial performance accuracy target level for
      combined title II and title XVI cases is 97 percent with a corresponding decision
      accuracy rate of 99 percent.
      (c) Intermediate Goals. These goals will be established annually by SSA's regional
      commissioner after negotiation with the State and should be used as stepping stones
      to progress towards our targeted level of performance.
      (d) Threshold levels. The State agency initial performance accuracy threshold level
      for combined title II and title XVI cases is 90.6 percent."

Accordingly, there is a distinction between Performance Accuracy and Net Accuracy.
Performance accuracy is the official accuracy standard mandated by the regulation
20 CFR 404.1643. Performance accuracy is the percentage of cases that do not have to be
returned to State agencies for decision correction or the development of additional
documentation. The State agency performance accuracy target level for combined Title II and
Title XVI initial claims is 97 percent with a corresponding decision accuracy rate of 99 percent.
Regulations mandate that the deficient case still be counted as an error even if the decision does
not change. The performance standard is not just about “getting it right,” it is about “doing it
right.” Consistent application of policy ensures equal treatment.

On the other hand, Net Accuracy is defined as the percentage of correct initial State agency
disability determinations, i.e., all cases reviewed and determined to be correct, plus those
corrected deficient cases whose decision did not change. Net accuracy counts as deficient those
returned deficiencies whose decisions change upon correction, in addition to other returned
deficiencies that are not corrected within 90 days from the end of the reporting period.

Net Accuracy is an alternate method of reporting DDS accuracy based on the “correctness” of
the DDS disability determination. The Agency believes that Net Accuracy provides the public
with a more accurate picture of the initial DDS determination.

Clearly we have made progress and are moving toward the ultimate target of 99 percent. But, at
present, we are still in the intermediate goal category.



Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   E-3
Recommendation 3

Ensure that the performance indicator titles, definitions, and goals are explicit, complete, and
consistent.

Response

We agree. We will work with the sponsoring components to ensure performance titles,
definitions, and goals are explicit, complete, and consistent in the Annual Performance Plan
(APP) and PAR.

Recommendation 4

Provide comprehensive explanations on the relevance of non-comparable data included in the
PAR narrative.

Response

See response to Recommendation 3. We agree that the historical data from 1999 through 2002
do not have any relevance since the performance measure was changed in FY 2003. The FY
2004 PAR will only present the data for FY 2003 and FY 2004.

Recommendation 5

Consider including the accuracy rates for allowances and denials.

Response

We disagree with the need to have multiple external GPRA measures for DDS accuracy.
Reporting allowances and denials separately would not provide a more meaningful indicator and
would simply be redundant. If anything, it would cause more confusion for the public regarding
the Quality Assurance (QA) process. Changing how we report this indicator will not change
how the Agency approaches tracking, analyzing, or taking appropriate action. The Agency
tracks allowances and denials separately, analyzes trends, and takes appropriate action (e.g.,
providing feedback, training, staffing, funding, etc.) to improve the quality of the decision, not
the accuracy.

We consider the current measure to be the most complete measure of accuracy. The Agency
believes that reporting the combined Net Accuracy rate for allowances and denials provides a
truer picture to the public of the overall correctness of the initial disability determination.




Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   E-4
Recommendation 6

Include in the PAR the margin of error (i.e., quantification of sampling error) that results from
projecting the sample error rate to the entire population of cases reviewed.

Response

We agree. Providing a margin of error would add more meaning to the performance measure
and we will include the margin of error when we submit the data for inclusion in the next PAR.

Recommendation 7

Maintain documentation that describes how the performance indicator goals were established,
document the policies and procedures used to prepare and report the results of the performance
indicators, and keep a complete audit trail.

Response

SSA already documents and establishes internal controls over the collection, processing and
reporting of data to ensure that our indicators are complete and adequate. We will continue to
implement this process for any new indicators that are established in the future.

As an example, we would note that the comments in our computer programs are adequate in that
they satisfactorily meet the needs of our users. The majority of the computer programs are
written in COBOL, which uses many English terms, and is known for its ability to be followed
easily by programmers. Also, most programs contain a short description in the “Program
Description” section at the beginning of the listing, along with an explanation of the options that
the program uses. In addition, each program contains a “Revision Log” section, where all
revisions are documented, including the date of change and the nature of the change itself—in
essence, an “audit trail.” Outside of the programs themselves, the systems staff maintains an
Excel spreadsheet of all COBOL programs. This spreadsheet lists the program name, a short
description, the programmer name, and the input and output datasets used. We have discovered
that the spreadsheet was not current and are working to update this immediately.

Recommendation 8

Ensure that SSA personnel do not have the ability, through inappropriate access, to directly
modify, create or delete the datasets used to calculate the results of this indicator.

Response

We agree. We have implemented this recommendation. The report noted that seven OQA
employees have the “All” access designation within the Top Secret security software to the
datasets used to calculate the results of this indicator. Six of these seven comprise the
OQA/Office of Disability Program Quality (OQA/ODPQ) Systems Staff. They are responsible
for all programming pertaining to the Disability Quality Branch’s (DQB) review data after it is



Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   E-5
transmitted to the IBM mainframe. This includes updating, maintaining, and reporting from the
databases where the data are housed. All must have full access to be able to do their assigned
tasks. Additionally, each has been an SSA employee for at least 20 years, most of which time
has been spent working on this data. The seventh employee has been an SSA employee for over
25 years, part of which was on the OQA/ODPQ Systems Staff. He has since moved to a
different job, although still within OQA. Because he no longer works with the mainframe
datasets that contain Disability Case Adjudication and Review System (DICARS) data, his
access has been completely removed. Further, the fact that this review, as well as the many
others that have preceded it, has taken random samples from the database to ensure that the
coded review results accurately reflect the case outcome, has established that access has been
used appropriately and the data have not been manipulated.

Technical Comments

Page 2, Background, second paragraph, second sentence should be changed to read, "SSA’s
Quality Assurance (QA) Initial Disability Determination Reviews, which are conducted by the
regional disability quality branches (DQB) within the Office of Quality Assurance and
Performance Assessment (OQA)..."

Page 3, second paragraph should be changed to read, "The DDS Net Accuracy Rate reflects
Group I deficiencies in initial determinations only. The Net Accuracy Rate is based on the
number of deficient cases with changed disability decisions. In addition, deficient cases not
corrected within 90 days from the end of the period covered by the report, are counted as
changed decisions."

Page 4, third full paragraph, fourth sentence, delete "Therefore." As noted above in the response
to recommendation 5, while the Agency tracks allowances and denials separately, this is done to
analyze trends and provide feedback, training, staffing, and funding to improve the quality of the
decision, not to measure accuracy. Thus, the report mischaracterizes our action.

For accuracy, Appendix C, page 2 should be revised, as follows:

DDS Net Accuracy Rate

    •   Disability Determination Services (DDS) makes decisional input into State system.
    •   Data is then uploaded to National Disability Determination Services System (NDDSS).
    •   The automated sample selection process within NDDSS selects the files for review.
    •   Case data is subsequently downloaded to Disability Case Adjudication and Review
        System (DICARS).
    •   Case files are forwarded to the Disability Quality Branches (DQB) for review.
    •   If documentation in the file is sufficient to support the disability determination, DQB
        approves the determination.
    •   If documentation in file is insufficient to support the proposed disability determination,
        the case is returned for additional documentation. If the documentation supports a
        different determination, the case is returned for correction of the determination.



Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   E-6
    •   If a case is returned to the DDS, the DDS must return the corrected case to the DQB for
        completion of the review within 90 days.
    •   Once the additional documentation or the corrected determination is provided to DQB,
        the DQB completes the review.
    •   Review data and final results are entered into DICARS.
    •   Results are uploaded to the Office of Quality Assurance and Performance Assessment
        National Datafile.
    •   Results are summarized in the Net Accuracy Report. Determinations in which the
        determination did not change; i.e., the decision to allow or deny remained the same, are
        not counted as deficiencies for the purpose of the calculation of net accuracy. All other
        deficiencies; i.e., all deficiencies in which the determination changed, as well as the
        delinquent returns, are counted as changed decisions for the calculation of net accuracy.




Performance Indicator Audit: DDS Net Accuracy Rate-Allowances and Denials Combined (A-15-04-14074)   E-7
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General

OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
